No. 20-850

In the Supreme Court of the United States
__________________
BIG TIME VAPES, INCORPORATED; UNITED STATES
VAPING ASSOCIATION, INCORPORATED,
Petitioners,
v.
FOOD & DRUG ADMINISTRATION; STEPHEN M. HAHN,
COMMISSIONER OF FOOD AND DRUGS; ALEX M. AZAR,
II, SECRETARY, U.S. DEPARTMENT OF HEALTH AND
HUMAN SERVICES, IN HIS OFFICIAL CAPACITY,
Respondents.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Fifth Circuit

__________________
REPLY BRIEF

__________________
JERAD WAYNE NAJVAR
Counsel of Record
AUSTIN M.B. WHATLEY
NAJVAR LAW FIRM, P.L.L.C.
2180 North Loop West, Ste. 255
Houston, TX 77018
(281) 404-4696
jerad@najvarlaw.com
Counsel for Petitioners
May 12, 2021
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . ii
REPLY BRIEF . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
I. The Government Cannot Defend the Deeming
Authority Without Contradicting Panama
Refining and Ignoring Material Factors in This
Court’s Other Nondelegation Decisions. . . . . . . . 2
II. This Case Presents a Particularly Compelling
Vehicle for the Renewed Enforcement of the
Nondelegation Doctrine. . . . . . . . . . . . . . . . . . . . . 8
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

ii
TABLE OF AUTHORITIES
CASES
Federal Power Com’n v. Hope Natural Gas Co.,
320 U.S. 591 (1944). . . . . . . . . . . . . . . . . . . . . . . . 4
Gundy v. United States,
139 S. Ct. 2116 (2019). . . . . . . . . . . . . . . . . . 3, 4, 9
Lichter v. United States,
334 U.S. 742 (1948). . . . . . . . . . . . . . . . . . . . . . . . 5
Marshall Field & Co. v. Clark,
143 U.S. 649 (1892). . . . . . . . . . . . . . . . . . . . . . . . 3
Mistretta v. United States,
488 U.S. 361 (1991). . . . . . . . . . . . . . . . . . . . . . 5, 6
National Broadcasting Co. v. United States,
319 U.S. 190 (1943). . . . . . . . . . . . . . . . . . . . . . 4, 5
Panama Refining Co. v. Ryan,
293 U.S. 388 (1935). . . . . . . . . . . . . . . . . . . passim
Touby v. United States,
500 U.S. 160 (1991). . . . . . . . . . . . . . . . . . . . . . 4, 9
United States v. Stevens,
559 U.S. 460 (2010). . . . . . . . . . . . . . . . . . . . . . . . 7
Whitman v. American Trucking Assocs.,
531 U.S. 457 (2001). . . . . . . . . . . . . . . . . . . . 4, 5, 7
REGULATIONS
81 Fed. Reg. 28,983 . . . . . . . . . . . . . . . . . . . . . . . . . . 7

1
REPLY BRIEF
The Government’s1 response here only serves to
further illustrate the urgent need for this Court’s
review. Despite the ease with which Congress could
have provided the requisite policy guidance in the
Tobacco Control Act (TCA) to avoid an unconstitutional
delegation under current jurisprudence, the FDA’s
response reflects that even this complaisant standard
is too much for the “deeming” authority to bear. This
is clear because the FDA still cannot defend the
deeming authority without ignoring the facts—and,
therefore, the actual holdings—of this Court’s prior
nondelegation cases.
The FDA’s superficial treatment of this Court’s
leading nondelegation cases merely buttresses what
Petitioners have said all along: the deeming authority
cannot be upheld without ignoring and negating even
the modest limits that should still apply under Panama
Refining Co. v. Ryan, 293 U.S. 388 (1935). Just like the
Fifth Circuit, the FDA is emboldened to offer such a
superficial and dismissive defense of the statute only
because this Court’s refusal to enforce the
nondelegation doctrine in the last 85 years has invited
the attitude that the doctrine is dead. The Court’s
inaction in this case will not merely preserve the status
quo, but will permit the further expansion of
permissible delegations and, thus, the further
degradation of a core structural feature of our
Constitution.

1

Petitioners sometimes refer to Respondents, collectively, as “the
Government” or “FDA.”

2
I. The Government Cannot Defend the Deeming
Authority Without Contradicting Panama
Refining and Ignoring Material Factors in
This Court’s Other Nondelegation Decisions.
Petitioners argued that the deeming provision is
unconstitutional because the TCA imposes no operative
standard guiding the agency’s determination as to
which additional tobacco products shall be regulated,
and none can be fairly discerned from the TCA’s
preface because Congress’s general statements of
purpose are diverse and in actual tension with one
another. Pet. 22-32. In such circumstances, Panama
Refining precludes courts from prioritizing among
these various interests in order to concoct a standard
that Congress declined to impose. 293 U.S. at 416-19.
Incredibly, Respondents attempt to avoid this part
of Panama Refining by re-writing it. Respondents
repeatedly posit what they call the National Industrial
Recovery Act’s “central goal,” or “overarching purpose,”
Resp. at 19, 20, and claim that Panama Refining held
the delegation excessive because “[v]irtually any
invocation of the President’s power therefore would
have been in substantial tension with the Recovery
Act.” Resp. at 19.
That is not at all what Panama Refining held.
Instead, the Court recognized the tension inherent in
the competing interests identified by Congress, and
held that such broad statements of purpose cannot
provide a sufficient guide to executive action without
some operative standard in the statute. Panama
Refining, 293 U.S. at 418-19; id. at 418 (“Among the
numerous and diverse objectives broadly stated, the

3
President was not required to choose.”). To the extent
that Panama Refining did recognize a “general policy,”
as Respondents posit, this only makes it worse for the
FDA because, despite identifying such “general policy,”
the Court still held the delegation excessive for lack of
an operative standard. Id. at 418-19. The deeming
authority fails for the same reason. See Gundy, 139 S.
Ct. at 2134 (Gorsuch, J., dissenting) (“The framers
understood, too, that it would frustrate ‘the system of
government ordained by the Constitution’ if Congress
could merely announce vague aspirations and then
assign others the responsibility of adopting legislation
to realize its goals.”) (quoting Marshall Field & Co. v.
Clark, 143 U.S. 649, 692 (1892)).
Respondents also rely heavily on the fact that the
deeming authority is limited to the field of “tobacco
products,” a term defined by Congress, and that the
TCA provides the substantive requirements applicable
to a product once it is deemed to be subject to the
statute. Resp. at 18. These are arguments that
Petitioners have anticipated, and addressed, at every
iteration of this litigation since initial arguments in the
trial court. At every juncture, Petitioners have
explained why these aspects of the TCA do not obviate
the delegation question, because they provide no
guidance regarding when or in what circumstances the
FDA should “deem” any additional segment of “tobacco
products” to be subject to the watchful eyes of federal
bureaucrats. See Pet. at 30-32. If defining the field of
potential regulation were sufficient, then Panama
Refining could have stopped with the observation that
“[t]he subject to which th[e President’s] authority
relates is defined.” 293 U.S. at 414. Likewise, the fact

4
that the TCA lays out the restrictions applicable to
products subjected to it does not substitute for the lack
of any standard to guide the Secretary in deciding
whether these restrictions will apply. If that were the
case, this Court certainly wasted a lot of ink in Touby
v. United States, 500 U.S. 160 (1991), examining the
Controlled Substances Act for relevant limitations on
the Attorney General’s temporary scheduling decisions.
Respondents’ refusal to engage these specific points is
an indication that they have no good response.
Regarding other authorities the FDA cites, the
Government simply closes its eyes to the facts of these
cases, elevating isolated phrases but ignoring the
material aspects of the statutes this Court relied upon
in rejecting nondelegation challenges. See Resp. at 1617. Predictably, the FDA points to several cases
frequently cited as examples illustrating the outer
bounds of permissible delegations. See, e.g., Gundy,
139 S. Ct. at 2129 (citing, inter alia, Whitman v.
American Trucking Assocs., 531 U.S. 457, 474-75
(2001), National Broadcasting Co. v. United States, 319
U.S. 190, 216 (1943), and Federal Power Com’n v. Hope
Natural Gas Co., 320 U.S. 591 (1944)). Yet these
authorities reflect that, even in the most extreme cases,
the statutes at issue were upheld only because the
Court identified some substantive standard that,
althoug h b roa dl y w orded, manifested a
Congressionally-determined policy and imposed some
limit on the delegee’s discretion. National Broad. Co.,
319 U.S. at 216 (Federal Communications
Commission’s power to regulate radio airwaves in the
“public interest”); Federal Power Comm’n, 320 U.S. at
600 (Federal Power Commission’s authority to

5
determine “just and reasonable” rates for wholesale
sales of natural gas)); American Trucking, 531 U.S. at
472 (Environmental Protection Agency’s authority to
set nationwide air-quality standards limiting pollution
to the level “requisite” “to protect the public health”).
The TCA lacks any such standard, which is why the
FDA is forced to attempt to cobble something together
from the TCA’s amorphous and competing statements
of purpose in contravention of Panama Refining.2
The FDA’s decision to rely so heavily on Mistretta v.
United States, 488 U.S. 361 (1991) (Resp. at 18, 19, 24),
is puzzling, because the Court in Mistretta was able to
identify multiple levels of express parameters and
limitations guiding the Sentencing Commission’s
discretion. Several paragraphs would be required
2

In fact, in many of these oft-cited examples of capacious
delegations, this Court identified and relied upon far more detailed
guidance than is reflected in the superficial quotations from these
cases that are repeatedly recited by the government (and even
subsequent opinions of this Court and lower courts). For example,
in National Broadcasting, the Court relied on the fact that the
statute fleshed out “public interest” to mean “the interest of the
listening public in ‘the larger and more effective use of radio.’” 319
U.S. at 217 (citing an additional substantive provision of the
statute at issue). In American Trucking, the statute did not simply
allow unlimited discretion “to protect the public health,” but
required the EPA Administrator to set “ambient air quality
standards … which in the judgment of the Administrator, based on
[the] criteria [documents of § 108] and allowing an adequate
margin of safety, are requisite to protect the public health.”
(emphasis added). See also Lichter v. United States, 334 U.S. 742,
783-84 (1948) (“excessive profits,” as defined in prior
administrative practice and written policies known to Congress).
Thus has the Court referred to additional, consistent indications
of statutory purpose to flesh out the underlying standard.

6
merely to summarize the Court’s summary of those
provisions. See id. at 375-77. Suffice it to say that
Mistretta observed that Congress had “legislated a full
hierarchy of punishment-from near maximum
imprisonment, to substantial imprisonment, to some
imprisonment, to alternatives-and stipulated the most
important offense and offender characteristics to place
defendants within these categories.” 488 U.S. at 377.
The TCA identified no parameters or characteristics to
limit the Secretary’s discretion in determining which
additional products should be federally regulated,
when, or for what reasons.
Notably absent from the Response is any real
attempt to grapple with the fact that Congress only
applied the TCA to cigarettes and smokeless tobacco,
leaving any other “tobacco products” to be regulated
only at the Secretary’s discretion. Much like its
treatment of Panama Refining, FDA attempts to
sidestep the implications of Congress’s narrow
application of the TCA by re-writing the statute. FDA
invites the Court to pretend that the four types of
tobacco products subjected to the TCA by Congress in
2009 were actually just a list of examples, as if
§ 387a(b) said that “this chapter shall apply to tobacco
products, including” the four listed products, serving to
illustrate what Congress meant by “tobacco product.”
See Resp. at 10, 14. Of course, that is not what
§ 387a(b) says. And the four products enumerated by
Congress in § 387a(b) are—quite plainly—not
illustrative examples. Cigars and pipe tobacco clearly
fit the “tobacco product” definition (cf. Resp. at 14) and
yet were not regulated by Congress. Instead, Congress
deliberately limited the application of the TCA, and the

7
Secretary was indisputably not under any duty to
regulate any other “tobacco product” at any time.
Finally, the FDA cannot avoid Petitioners’
nondelegation claim by arguing that the agency
confined its deeming discretion within parameters that
it imposed upon itself. Cf. Resp. at 21-22; id. at 22
(“The agency further explained [in the Deeming Rule]
that, ‘although FDA is not required to meet a
particular public health standard to deem tobacco
products, regulation of the newly deemed products will
be beneficial to public health.’”) (quoting 81 Fed. Reg.
at 28, 983). This Court has already rejected “[t]he idea
that an agency can cure an unconstitutionally
standardless delegation of power by declining to
exercise some of that power.” Whitman v. American
Trucking Assocs., 531 U.S. 457, 473 (2001). As
Whitman observed, “[t]he very choice of which portion
of the power to exercise—that is to say, the prescription
of the standard that Congress had omitted—would
itself be an exercise of the forbidden legislative
authority.” Id.; see also United States v. Stevens, 559
U.S. 460, 480 (2010) (“We would not uphold an
unconstitutional statute merely because the
Government promised to use it responsibly.”).
Moreover, FDA’s assertion that “all products meeting
the statutory definition of tobacco product implicate
serious public health concerns, according to Congress’s
findings and statements of purpose” (Resp. at 15),
precludes any superficial appeal to “public health” as a
sufficient guide to when or why federal regulation
should extend to additional categories.

8
II. This Case Presents a Particularly Compelling
Vehicle for the Renewed Enforcement of the
Nondelegation Doctrine.
Petitioners argued that this case presents an
especially compelling need for enforcement of the
nondelegation doctrine because the statute confers a
particularly broad and standardless delegation of
power to decide major policy questions regarding
subject matter that is outside of any inherent authority
of the President. Pet. at 32-39. The FDA offers no
satisfying rebuttal.
FDA first resorts to the general principle that
Congress must be able to obtain “the assistance of its
coordinate Branches” and retain sufficient flexibility to
regulate appropriately. Resp. at 24-25. This is true
enough, but it is no excuse for Congress to avoid the
responsibility vested in it under article I to provide
constitutionally sufficient guidance in the statutes to
be administered. This Court recognized the need for
“flexibility and practicality” in Panama Refining itself,
but held that such recognition “cannot be allowed to
obscure the limitations of the authority to delegate, if
our constitutional system is to be maintained.” 293
U.S. at 421. Even if it were true that “the government
needs to be able to adapt to the ever-changing market
for tobacco products” because “manufacturers develop
new products … at a rapid rate,” Resp. at 24-25, this is
obviously no license to ignore the separation of powers.
The government’s interest here can certainly be no
greater than it was with respect to the Attorney
General’s authority to temporarily schedule “designer
drugs” under the Controlled Substances Act (CSA),

9
which incurred this Court’s careful scrutiny, and was
upheld only because the CSA contained a raft of
substantive limitations of a type that are completely
absent in the TCA. See Touby, 500 U.S. at 166-67; Pet.
at 31. And the FDA’s denial that the unilateral
discretion to decide whether entire segments of tobacco
products will be subject to federal regulation implicates
major policy questions (Resp. at 25-26) is belied by the
FDA’s own estimates regarding the impact such
regulation would have on the ENDS industry alone, see
Pet. at 12-13, and the very public and controversial
manner in which the Administration has handled the
enforcement decisions necessitated by the Deeming
Rule, see Pet. at 13-15, 16-17. Determining whether a
segment of the economy shall be regulated or
unregulated, as the deeming provision allows, is
materially different than delegating authority to finetune the parameters of a requirement that Congress
has mandated.
CONCLUSION
The FDA has said about as much as can be said in
defense of an indefensible delegation. None of it is
persuasive.
The government ignores material
distinctions in the relevant caselaw, pleading,
effectively, for the erasure of the only limits remaining
under current jurisprudence. The deeming authority
cannot be constitutional unless Panama Refining has
been neutered, subsilentio. If, instead, the separation
of powers is indeed a bulwark of liberty and a
fundamental aspect of our Constitution, Gundy, 139 S.
Ct. at 2133-34 (Gorsuch, J., dissenting), then this Court
must grant review and reverse the decision below.

10
Respectfully submitted,
JERAD WAYNE NAJVAR
Counsel of Record
AUSTIN M.B. WHATLEY
NAJVAR LAW FIRM, P.L.L.C.
2180 North Loop West, Ste. 255
Houston, TX 77018
(281) 404-4696
jerad@najvarlaw.com
Counsel for Petitioners

